Appendix A-1.
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS
BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith Clerk of Court
November 06, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-12215-AA
Case Style: Jeffrey Hill, Sr. v. Leandra. Johnson, et al
District Court Docket No: 3:17-cv-01342-HLA-JRK
The enclosed order has been entered on petition(s) for
rehearing.
See Rule 41, Federal Rules of Appellate Procedure,
and Eleventh Circuit Rule 41-1 for information
regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: T. L. Searcy, AA/lt
Phone #: (404) 335-6180

Appendix A-2
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12215-AA
JEFFREY LANCE HILL, SR.,
Plaintiff-Appellant
versus
LEANDRA G. JOHNSON,
individually,
GREGORY S. PARKER
individually,
JENNIFER B. SPRINGFIELD
individually,
WILLIAM F. WILLIAMS, III,
individually, JOEL F. FOREMAN, individually,
SUWANNEE RIVER WATER MANAGEMENT
DISTRICT, CITY OF LAKE CITY, FLORIDA, et al.,
Defendants-Appellees.
Appeal from the United States District Court for the
Middle District of Florida
ON PETITION(S) FOR REHEARING AND
PETITION (S) FOR REHEARING EN BANC
BEFORE WILSON, BRANCH, AND JULIE
CARNES, Circuit Judges:
PERCURIAM:

Appendix A-3
The petition for Rehearing is DENIED. No judge in
regular active service on the Court having requested
that the Court be polled on rehearing en banc, the
Petition for Rehearing En Banc is also DENIED.
(Federal Rule of Appellate Procedure 35).
ENTER FOR THE COURT
Signature not legible, via phone call clerk would not
identify the judge.
UNITED STATES CIRCUIT JUDGE

Appendix A - 4
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12215
Non-Argument Calendar
D.C. Docket No. 3:17-cv-01342-HLA-JRK
JEFFREY LANCE HILL, SR.,
Plaintiff-Appellant,
versus
LEANDRA G. JOHNSON,
individually,
GREGORY S. PARKER,
individually,
JENNIFER B. SPRINGFIELD,
individually,
WILLIAM F. WILLIAMS, III,
individually,
JOEL F. FOREMAN,
individually,
SUWANNEE RIVER WATER MANAGEMENT
DISTRICT, CITY OF LAKE CITY, FLORIDA, et al.,
Defendants-Appellees.
Appeal from the United States District Court for the
Middle District of Florida
(September 20, 2019)
Before WILSON, BRANCH, and JULIE CARNES,
Circuit Judges. PER CURIAM:

Appendix A-5
Jeffrey Hill, proceeding pro se, appeals the district
court's sua sponte dismissal with prejudice,
pursuant to 28 U.S.C. §1915(e)(2)(B), of his pro se
civil rights complaint, in which he asserted that
several prior Florida judgments against his farm
were improper and that the defendants' actions
violated his rights under 42 U.S.C.. §§ 1982, 1983,
and 1985 (3), and the Fifth, Eighth, and Fourteenth
Amendments of the United States Constitution.
Additionally, he appeals the denial of his motion for
reconsideration and leave to amend his complaint.i
For the following reasons, we affirm.
I.
In 2017, Hill filed a pro se civil rights
complaint against three Florida judges (the "judicial
defendants"); two Florida attorneys; the Suwannee
River Water Management District (the "District");
Columbia County, Florida (the "county"); and the
City of Lake City, Florida (the "city"). The basis for
Hill's complaint was multiple prior Florida state
court judgments entered against his farm.
Specifically, in 2006, the District brought a lawsuit
in Florida state court against Hill's Farm, El Rancho
No Tengo, Inc, alleging that the farm had repaired a
pipe on the property without obtaining the proper
permits. The District prevailed in that action and
over the years several civil judgments have been
entered against the farm, imposing civil penalties
and authorizing the District to allow water to flow
onto Hill's land. According to the complaint, Hill has
unsuccessfully attempted to obtain relief in matter
related to those judgments in two state court cases,

Appendix A-6
two bankruptcy cases, and various federal and state
appeal processes.
After summarizing the procedural history of
the various legal proceedings related to the Florida
judgments in his complaint, Hill asserted, without
further explanation, that: (1) the defendants' actions
violated his right "to inherit, purchase, lease, sell,
hold and convey real and personal property," under
42 U.S.C. § 1982; (2) the defendants' actions violated
his "right to redress for deprivation of rights,
privileges or immunities secured by the Constitution
and laws" under 42 U.S.C. § 1983; (3) the
defendants' "conspired to deprive him of his civil
right to equal protection of the laws," in violation of
42 U.S.C. § 1985(3); (4) the defendants' actions
violated the Fifth Amendment's guarantee that a
person cannot be deprived of property without due
process of law and that property could not be taken
for public use, without just compensation; (5) two of
the judges violated the Eighth Amendment's
guarantee that "excessive bail shall not be required,
nor excessive fines imposed, nor cruel and unusual
punishments inflicted"; and (6) the District, the
county, and the city violated the Fourteenth
Amendment, which provides that the State cannot
deprive a person of property without due process of
law and shall not "deny to any person within its
jurisdiction the equal protection of the laws." As
relief, he requested compensatory and punitive
damages, a declaratory judgment that the
defendants' actions violated his constitutional rights,
and an award of fees and costs. Hill paid the filing
fee when he filed his complaint.

Appendix A-7
The judicial defendants and Springfield made a
limited appearance and moved to quash for improper
service of process. The city and the District moved
to dismiss the complaint for failure to state a claim
upon which relief may be granted, pursuant to
federal Rule of Civil Procedure 12(b)(6), arguing
among other things that Hill's claims were barred by
the Rooker-Feldmannd.octrine.
Without addressing the pending motions, the district
court sua sponte dismissed Hill's complaint,
pursuant to 28 U.S.C. § 1915(e)(2)(B), concluding
that given this procedural history, the district court
concluded without further explanation that Hill
failed to state a claim upon which relief could be
granted and dismissed the complaint with prejudice.
Hill subsequently moved for reconsideration and for
leave to file an amended complaint, maintaining that
the district court had the authority to review his
claims, and that he stated viable claims for relief.
The district court denied the motion. This appeal
follows.
II.
Hill first challenges the district court's sua sponte
dismissal of his complaint. He maintains that the
district court had authority to review the state court
judgments against him and that the state court
judgments were wrong.
"We review de novo a district court's sua sponte
dismissal for failure to state a claim, pursuant to §
1915(e)(2), using the same standards that govern
Federal Rule of Civil Procedure 12(b)(6) dismissals."
Farese v. Scherer, 342 F.3d 1223, 1230 (11th Cir.
2003). As an initial matter, the district court erred
in dismissing the complaint under § 1915(e)(2)(B), as

Appendix A-8
§ 1915 applies to a party that is proceeding [in forma
pauperis].").
Nevertheless, we :may affirm the
judgment of the district court on any ground
supported by the record, regardless of whether that
ground was relied upon or even considered by the
district court." Kernel Records Oy v. Mosley, 694
F.3d. 1294, 1309 (11th Cir. 2012). Although the
district court incorrectly acted under § 1915 (e), we
conclude that dismissal under Rule 12(b)(6) was
nonetheless appropriate.
To prevent dismissal under Rule 12(b)(6), the
plaintiff must allege sufficient facts "to state a claim
to relief that is plausible on its face." Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007). In making
this determination, "pro se pleadings are held to a
less stringent standard than pleadings drafted by
attorneys and will, therefore, be liberally construed."
Hughes vs. Lott, 350 F.3d. 1157, 1160 (11th Cir.
2003) (quotations omitted). "A complaint is subject
to dismissal for failure to state a claim if the
allegations, taken as true, show the plaintiff is not
entitled to relief." Jones vs. Bock, 549 U.S. 199, 215
(2007). "If the complaint contains a claim that is
facially subject to an affirmative defense, that claim
may be dismissed under Rule 12(b)(6)." LeFrere v.
Quezada, 582 F.3d 1260,1263 (11th Cir. 2009).
Here, although Hill cursorily, and without any
further explanation, asserted that his rights were
violated by the defendants' actions, the gravamen of
Hill's complaint sought to relitigate the various state
court judgments entered against his farm, and seek
relief from the alleged damages resulting from those
prior judgments.iii Thus Hill's claims were barred by
the Rooker-Feldman doctrine, which precludes

Appendix A-9
federal district courts from reviewing "cases brought
by state-court losers complaining of injuries caused
by state-court judgments rendered before the district
court proceedings commenced and inviting court
review and rejection of those judgments." Exxon
Mobil Corp. v. Suadi Basic Indus Corp., 544 U.S.
280, 284 (2005); see also Johnson v. De Grandy, 512
U.S. 997, 1005-06 (1994) (explaining that the
Rooker-Feldman doctrine is an abstention doctrine,
"under which a party losing in state court is barred
from seeking what in substance would be appellate
review of the state judgment in a United States
district court, based on the losing party's claim that
the state judgment itself violates the loser's federal
rights"). Accordingly, Hill's complaint failed to state
any claim upon which the district court could grant
relief. He then argues that the civil penalties and
fines imposed against the farm were
unconstitutional and excessive, that the District did
not have the authority to require him to obtain a
permit to repair the pipe, and that the state court
lacked subject matter jurisdiction over 2006 action
brought by the District.
M.
Hill also challenges the district court's denial of his
motion for reconsideration and leave to amend his
complaint.
We review the denial of a motion for reconsideration
for an abuse of discretion. Richardson v. Johnson,
598 F.3d 734, 740 (11th Cir. 2010). "A motion to
amend a complaint for an abuse of discretion, but we
review questions of law de novo." Conventry First,
LLC. V McCarty, 605 F.3d 865, 869 (11th Cir. 2010)

Appendix A-10
(quotation omitted). The Court has held that a
district court must callow a plaintiff at least one
opportunity to amend a pleading before dismissing it
for failure to state a claim, "if it appears a more
carefully drafted [pleading] might state a claim upon
which relief can be granted." Silva v. Bieluch, 351
F.3d 1045, 1048-49 (11th Cir. 2003) (quotation
omitted). "a district court need not, however, allow
an amendment (1) where there has been undue
delay, bad faith, dilatory motive, or repeated failure
to cure deficiencies by amendments previously
allowed; (2) where allowing amendment would cause
undue prejudice to the opposing party; or (3) where
amendment would be futile." Bryant v. Dupree, 252
F.3d. 1161, 1163 (11th Cir. 2001).
Here, the district court did not abuse its discretion
by denying Hill's motion for reconsideration. Hill
was simply quarrelling with the outcome and
attempting to relitigate his claims. See Richardson,
598 F.3d at 740. Likewise, the district court abuse
its discretion in denying his motion for leave to
amend, as amendment would have been futile
because the ultimate relief Hill sought in the district
court — review of the state court judgments against
his farm — is barred by the Rooker-Feldman doctrine.
Accordingly, we affirm the district court's denial of
Hill's motion for reconsideration and leave to amend.
AFFIRMED.

' Following the dismissal of his complaint, one of the defendants
moved for sanctions, pursuant to Federal Rule of Civil
Procedure 11, which the district court granted following a
hearing. We previously dismissed in part the appeal as to the
issue of sanctions for lack of jurisdiction because the district

Appendix A-11

court did not determine the amount of sanctions which
rendered the decision non-final
' Rooker v. Feldman Trust Co., 263 U.S. 413 (1923) and D.C.
Court ofAppeals v. Feldman, 460 U.S. 462 (1983). The action
was "frivoulous, malicious, or failed to state a claim On which
relief may be granted." The court noted that Hill previously had
filed multiple cases in the district court concerning the same
facts and seeking the same relief. He was unsuccessful in all
those cases. (Id.).
iii Furthermore, his brief before this court makes clear he
sought to have the district court review the Florida judgments.
For instance, Hill under 28 U.S.C. § 2201 "to end the
controversy by overturning, vacating or setting aside errant
decisions of the state court."

Appendix A-12
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
JEFFREY LANCE HILL, SR.,
Plaintiff,
v.

Case No. 3:17-cv-1342-J-25 JRK

LEANDRA G. JOHNSON, ect., et al,
Defendants.
ORDER
THIS CAUSE is before the Court on Defendant
Suwannee River Water Management District's
Motion for Attorneys Fees, Cost and Final Judgement
(Dkt. 35). Plaintiff has filed an appeal in this case
(Dkt. 28). Thus, it is ORDERED:
Defendant Suwannee River Water
Management District's Motion for Attorneys Fees,
Cost and Final Judgement (Dkt. 35) is DENIED
without prejudice to refiling after the appeal has been
resolved in this case.
DONE AND ORDERED this 26th day of July
2018.
HENRY LEE ADAMS, JR.
United States District Judge

Appendix A-13
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

JEFFREY LANCE HILL, SR.,
Plaintiff,
v.

Case No. 3:17-cv-1342-J-25-JRK

LEANDRA G. JOHNSON, etc., et al,
Defendants.

ORDER
THIS CAUSE is before the Court on
Defendant Suwannee River Water Management
District's Motion for Sanctions (Dkt. 20). Plaintiff
filed a response to the motion and the Court held a
hearing on the matter.
As an initial note, the Court finds that
Plaintiffs Motion to Rehear (Dkt. 17) and Motion for
Stay of Enforcement (Dkt. 21) are frivolous and
therefore due to be denied.
Background
As noted in the Court's Order dismissing this
case (Dkt. 14), for more than ten years, Plaintiff has
filed multiple cases in this court regarding the facts
articulated in the instant complaint; there is no need
to restate them now. As stated by Judge Corrigan in
case number 3:15-cv-1013-J-32. Dkt. 14:

Appendix A-14
Plaintiff has filed several actions in this Court
arising out of the same relief, that is, to revisit the
validity of state court liens, judgments, and
litigation beginning in 2006. See, e.g., Hill v.
Suwannee River Water Mgmt. Dist., No. 3:12-cv-860TJC (affirming U.S. Bankruptcy Court's dismissal of
Hill's Chapter 12 case, and explaining "Despite
appellant's request, this Court has no authority to
review the state court decisions which underlie the
bankruptcy court's ruling' (Doc. 22 at 2), where Hill
identified as issues on appeal from U.S. Bankruptcy
Court that "The Bankruptcy Court erred in its
refusal to explore the validity of the State Court
judgment"; "The State Circuit has no jurisdiction...
in Case No. 06-203 CA, therefore judgment is void ab
initio"; and "There is a conflict of authority between
State Circuit Case No. 06-203 CA and State Circuit
Court Case No. 89-22 CA..."(Doc. 7 at 6)), affd, No.
14-10609 (11th Cir. Nov. 19, 2014); Hill v. Suwannee
River Water Mgmt. Dist., No. 3:15-cv-1475-TJC
(identifying in statement of issues, :Since the
bankruptcy court's abstinence relies on the validity
of the State Court's judgments in case# 2006-203
CA, whether the state court and the Suwannee
Rover Water Management District had competent
jurisdiction and authority to begin action." (Doc. 4 at
)); Hill v. Suwannee River Water Mgmt. Dist., No.
3:15-cv-1445-J-32JRK ("The objective of this action
[for declaratory judgment and quiet title] is to obtain
an unprejudiced determination of the legal authority
of the District to begin legal action against the farm
and Hill, also to obtain a legal determination of the
validity of the state court's adjudication in case nos.
06-206CA and 13-666 CA." (Doc. 1 at 1))...

Appendix A-15
Of note, in this same Order, Judge Corrigan
stated, "there is no basis for... any further cases
arising from these facts. Thus, the Court will
strongly consider awarding sanctions if Plaintiff
continues to file such pleadings."
Instead of heeding this admonition, Plaintiff
filed the instant case in this Court. As has been
detailed in prior orders entered in Plaintiffs related
cases, Plaintiffs Complaint fails to state any claim
upon which relief can be granted in this Court.
Accordingly, Defendant filed a motion for Rule
11 sanctions in the instant case, seeking its fees and
expenses for defending this case.
Standard
Rule 11 sanctions are proper (1) when a party
files a pleading that has no reasonable factual basis;
(2) when the party files a pleading that is based on a
legal theory that has no reasonable chance of success
and that cannot be advanced as a reasonable
argument to change existing law; and (3) when the
party files a pleading in bad faith for an improper
purpose. Jones v. Intl Riding Helmets, Ltd., 49 F.3d
692, 694 (11th Cir. 1995).
Further, 28 U.S.C. Section 1927 provides.
"Any attorney or other person admitted to conduct
cases in any court of the United States or any
Territory thereof who so multiplies the proceedings
in any case unreasonably and vexatiously may be
required by the court to satisfy personally the excess
costs, expenses, and attorneys' fees reasonably
incurred because of such conduct" (emphasis added).
The Court also has the inherent authority to
sanction litigants.
However, "[i]nvocation of a
court's inherent power requires a finding of bad

Appendix A-16
faith." In re Mroz, 65 F. 3d 1567, 1575 (11th Cir.
1995).
Analysis
Plaintiffs multiple cases based upon the same
facts have not only strained the Court's limited
resources, but also forced Defendant to incur
significant expenses in responding to the Complaints
as well as Plaintiffs other improper filings.
This Court would ordinarily avoid sanctioning
a pro se litigant and has taken Plaintiffs
unrepresented status into account, affording him
every possible benefit of the doubt. However, the
Court has no problem in this case making a finding
of bad faith, that Plaintiff brought this case for an
improper purpose and vexatiously multiplied the
proceedings. Given the prior admonitions, sanctions
under Rule 11 and the Court's inherent authority
are clearly appropriate.
This for the reasons stated in this Order and
Defendant's Motion for Sanctions, it is ORDERED:
Defendant Suwannee River Water
Management District's Motion for
Sanctions (Dkt. 20) is GRANTED;
Defendant shall have until June 25, 2018
to submit its motion for reasonable costs
and expenses incurred in defending this
case;
Plaintiffs Motion to Rehear (Dkt. 17) is
DENIED;
Plaintiffs Motion for Stay of Enforcement
(Dkt. 21) is DENIED;
Plaintiffs Motion for Continuance (Dkt.
23) is DENIED.

Appendix A-17
DONE AND ORDERED this 18th
day of May, 2018.
"sf'Henry Lee Adams, Jr.
Henry Lee Adams, Jr.
United States District Judge

Appendix A - 18
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
JEFFREY LANCE HILL, SR.,
Plaintiff,
v.

3:17-cv-1342-J-25-JRK

LEANDRA G. JOHNSON, ect., et al,
Defendants.

ORDER
THIS CAUSE IS BEFORE THE Court on
Defendant Suwannee River Water management
District's Motion for Sanctions (Dkt. 20). Upon
consideration, it is ORDERED:
The Court will hold a hearing on Defendant
Suwannee River Water Management District's
Motion for Sanction (Dkt. 20) on Thursday, May 17,
2018 at 10:00 a.m. at the United States District
Court, Jacksonville, Florida in Courtroom 10A.
Plaintiff must attend the hearing.
DONE AND ORDERED this 11th day of April
2018.
"sr Henry Lee Adams, Jr.
Henry Lee Adams, Jr.
United States District Judge

Appendix A- 19
UNITED STATES DISTRICT COURT MIDDLE
DISTRICT OF FLORIDA JACKSONVILLE DIVISION
JEFFREY LANCE HILL, SR.,
Plaintiff,
V.

Case No. 3:17-cv-1342-J-25 JRK

LEANDRA G. JOHNSON, etc., et al,
Defendants.

ORDER
THIS CAUSE is before the Court sua sponte on
Plaintiffs Complaint (Dkt.1). 28 U.S.C. § 1915(e)
confers upon this Court the discretionary authority to
dismiss an action, notwithstanding any filing fee, or
any portion thereof, that may have been paid to the
court, if the Court is satisfied that the action, is
frivolous, malicious, or fails to state a claim on which
relief may be granted. 28 U.S.C. § 1915(e)(2)(B);
Denton v. Hernandez, 504 U.S. 25 (1992).
For more than ten years, Plaintiff has filed
multiple cases in this court regarding the facts
articulated in the instant complaint; there is no need
to restate them now. As stated by Judge Corrigan in
case number 3:15-cv-1013-J-32, Dkt.14:
Plaintiff has filed several actions in this Court
arising out of the same underlying facts and seeking
essentially the same relief; that is, to revisit the
validity of state court liens, judgments, and litigation
beginning in 2006. See, e.g., Hill v. Suwannee River

Appendix A - 20
Water Mgmt. Dist., No. 3:12-cv-860-TJC (affirming
U.S. Bankruptcy Court's dismissal of Hill's Chapter 12
case, and explaining "Despite appellant's request, this
Court has no authority to review the state court
decisions which underlie the bankruptcy court's
ruling" (Doc. 22 at 2), where Hill identified as issues
on appeal from U.S. Bankruptcy Court that "The
Bankruptcy Court erred in its refusal to explore the
validity of the State Court judgment"; "The State
Circuit Court had no jurisdiction ... in Case No: 06203 CA, therefore judgment is void ab initio"; and
"There is a conflict of authority between State Circuit
Case No: 06-203 CA and State Circuit Court Case No.
89-22 CA... "(Doc. 7 at 6)), affd, No. 14-10609 (11th
Cir. Nov. 19, 2014); Hill v. Suwannee River Water
Mgmt. Dist., No. 3:15-cv-1475-TJC (identifying in
statement of issues, "Since the bankruptcy court's
abstinence relies on the validity of the State court's
judgments in case # 2006-203 CA, whether the state
court and the Suwannee River Water Management
District had competent jurisdiction and authority to
begin the action." (Doc. 4 at 5)); Hill v. Suwannee River
Water Mgmt. Dist., No. 3:15-cv-1445-J-32JRK ("The
objective of this action [for declaratory judgment and
quiet title] is to obtain an unprejudiced determination
of the legal authority of the District to begin legal
action against the farm and Hill, also to obtain a legal
determination of the validity of the state court's
adjudication in case nos. 06-206 CA and 13-666 CA."
(Doc. 1 at 1))...
[The Court also dismissed] Appellant's appeal
from United States Bankruptcy Court in Hill
v.
Suwannee River Water Mgmt. Dist., No. 3:15-cv-1475TJC, and his Petition for Declaratory Judgment and
Quiet Title in Hill v. Suwannee River Water Mgmt.

Appendix A - 21
Dist., No. 3:15-cv-1445-J-32JRK.
On January 22, 2016, Hill removed a case to this
Court from Florida state court that appears to seek
relief based in part on the facts underlying his other
cases. See Hill et al. v. Suwannee River Water Mgmt.
Dist., No. 3:16-cv-169-J-39MCR. The Court today has
remanded that case to state court.
Of note, in this same Order, Judge Corrigan
stated, "there is no basis for...any further cases arising
- from these facts. Thus, the Court will strongly consider
awarding sanctions if Plaintiff continues to file such
pleadings." Instead of heeding this admonition, Plaintiff
filed the instant case in this Court. As has been
detailed in prior orders entered in Plaintiffs related
cases, Plaintiffs Complaint fails to state any claim
upon which relief can be granted in this Court.
Notwithstanding that the Court must hold pro
se Plaintiffs to a less stringent standard than that of
lawyers, the Court finds that Plaintiffs complaint is
due to be dismissed. Neitzke v. Williams, 490 U.S. 325
(1989). Accordingly, it is ORDERED: Plaintiffs
Complaint (Dkt.1) is DISMISSED with prejudice
and the clerk is directed to close the case.
DONE AND ORDERED this 4th day of
January 2018.
"sr Henry Lee Adams, Jr
Henry Lee Adams, Jr.
United States District Judge

